0

BECKER GALLAG HER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Amicus Curiae Brief
of the Association of Medical Device Service
Organizatio ns in Support of Petitioner in 19-783,
Nathan Van Buren u. United States, were sent via Two
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Two Day Service and e-mail to the
following parties listed below, this 7th day of July,
2020:
Jeffrey L. Fisher
Stanford Law School Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law .stanford.ed u
Counsel for Petitioner
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTME NT OF JUSTICE
950 Pennsylvan ia Ave., N.W.
Washington , DC 20530-0001
(202) 514-2217
SupremeCtB riefs@USDO J.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

John G. Dillard
Counsel of Record
J. Mason Weeda
Olsson Frank Weeda Terman Matz PC
2000 Pennsylvania Ave., NW
Suite 3000
Washington, D.C. 20006
(202) 789-1212
jdillard@ofwlaw .com
Jeffrey Berhold
Jeffrey L. Berhold, P.C.
1230 Peachtree St., Suite 1050
Atlanta, GA 30309
(404)872-3800

Counsel for Amicus Curiae,
Association of Medical Device
Service Organizations

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 7, 2020.

DonnaJ. Wo,
Becker Gallagher Le l ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date

di 1-, <)Odo
Jlvv ~ .

Notary Public

/J~~
U

[seal]

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

